                                 April 10, 2000

                                 MICHELE DENNY
                                 MANAGER, MARKETING TECHNOLOGY
                                  AND CHANNEL MANAGEMENT

                                 SUBJECT: Corporate Call Management Program –
                                          Customer Satisfaction
                                          (Report Number DA-MA-00-001)

                                 This report presents the results of our review of the
                                 Corporate Call Management Program performance (Project
                                 Number 99PA017DA000). This is the second of two reports
                                 issued on the Corporate Call Management Program.1 The
                                 objective of our review was to determine if the Corporate
                                 Call Management Program has improved customer
                                 satisfaction.

Results in Brief                 We could not determine if the Corporate Call Management
                                 Program improved customer satisfaction because data was
                                 not available to compare fiscal year (FY) 1999 performance
                                 with previous years. Customer satisfaction data collected in
                                 FY 1999 was not comparable to previous years because the
                                 methodology used to measure customer satisfaction
                                 changed and the Postal Service’s “Management Challenge”
                                 budget reduction initiative delayed customer surveys for part
                                 of the year. In addition, a baseline identifying the level of
                                 customer satisfaction with information received over the
                                 telephone had not been identified prior to establishing the
                                 Corporate Call Management Program.

                                 At the time of our review, the program office was
                                 reassessing survey methodology and was preparing a new
                                 contract proposal to measure customer satisfaction and the
                                 quality of service at the call centers. Consequently, it may



1
    Corporate Call Management (Report Number DA-AR-99-003), dated September 29, 1999.




                                            Restricted Information
Corporate Call Management Program                                                  DA-MA-00-001
 – Customer Satisfaction



                            not be practical to measure improvements in customer
                            satisfaction until the program office collects a full year of
                            survey data using a consistent format and methodology.

                            The Postal Service’s “Management Challenge” initiative
                            slowed the deployment schedule for the Corporate Call
                            Management Program, significantly reducing the program’s
                            call volume and the number of post offices serviced.
                            Management also eliminated customer satisfaction surveys
                            for three accounting periods starting in March 1999 as part
                            of the “Management Challenge” reductions. Computer-
                            assisted telephone surveys were not conducted between
                            March 27, 1999, and June 18, 1999, because the
                            “Management Challenge” initiative reduced the Corporate
                            Call Management Program’s operational budget.

                            We offered management one suggestion to establish
                            baseline performance metrics for measuring customer
                            satisfaction. Management agreed with our suggestion and
                            the actions taken and planned should correct the issue
                            identified in this report.

Background                  The primary goal of the Corporate Call Management
                            Program is to improve the telephone experience for
                            customers requesting information from their local post
                            offices over the telephone. The program office uses event-
                            based surveys and computer-assisted telephone surveys to
                            measure customer satisfaction. The Customer Satisfaction
                            Measurement, Consumer Affairs Office, administers the
                            surveys.

                            Computer-assisted telephone customer satisfaction surveys
                            with operator introduction are designed to measure the
                            overall quality of service delivery. The computer-assisted
                            telephone survey is a partially automated interviewing
                            system that is designed to measure the customer’s
                            perception of the call experience, ease of use, and specific
                            elements of service through the call center.

                            Event-based surveys evaluate the customer‘s experience
                            and perception of using the call center and whether they
                            received fulfillment at the local level for the service




                                                 2
                                      Restricted Information
Corporate Call Management Program                                                DA-MA-00-001
 – Customer Satisfaction


                            requested. Surveys measure the customer’s satisfaction
                            with call experience for three types of calls; requests to hold
                            mail, requests for redelivery, and service issues.

Objective, Scope, and       This report is the second of two reports issued on the
Methodology                 Corporate Call Management Program. The overall objective
                            of this phase of our review was to determine whether the
                            Corporate Call Management Program improved customer
                            satisfaction.

                            In completing our review, we analyzed records, notes,
                            surveys, reports, documents, and all material necessary to
                            evaluate the Corporate Call Management Program. We
                            interviewed Postal Service and contractor officials at the
                            Postal Service Headquarters. We discussed our
                            conclusions and observations with appropriate management
                            officials and included their comments, where appropriate.

                            The review was conducted from May 1999 through
                            April 2000, in accordance with the President’s Council on
                            Integrity and Efficiency, Quality Standards for Inspections.

Customer                    Customer satisfaction data was not comparable to previous
Satisfaction Surveys        periods because the format and methodology for collecting
                            the data changed several times.

                            •   In FY 1999 the computer-assisted telephone customer
                                satisfaction survey was redesigned between
                                December 5, 1998, and January 29, 1999.

                            •   Between January 2, 1999, and January 29, 1999, no
                                surveys were done because the program office was
                                changing contractors.

                            •   As part of the redesign, contractors at the national
                                service centers are now required to call the telephone
                                number of the individual that called the center and
                                attempt to interview them. Prior to the redesign,
                                customer service agents handling the call solicited
                                customers to participate in the surveys.

                            •   Between December 5, 1998, and January 1, 1999,
                                customer satisfaction surveys were changed to allow
                                computer generated automated call backs to phone



                                                3
                                     Restricted Information
Corporate Call Management Program                                               DA-MA-00-001
 – Customer Satisfaction


                                numbers of customers that had called the program
                                requesting service. This procedure was changed
                                between January 30, 1999, and February 26, 1999,
                                because there was no assurance that the respondent
                                answering the telephone was the individual that had
                                placed the call. This change required an independent
                                contractor at the national service center to ask
                                respondents a series of questions to determine their
                                reason for calling. The interviewer attempts to recruit
                                the respondent to complete the interactive voice
                                response portion of the survey. The interactive voice
                                response portion of the survey asks six questions that
                                measure the customer’s satisfaction with specific
                                elements of the service delivered through the call center.

                            Event-based surveys that were used in 1999 measured
                            customer’s satisfaction for three types of calls; requests to
                            hold mail, requests for redelivery, and service issues.
                            However, 90 percent of the calls received were for other
                            purposes and were not included in the event-based surveys.
                            These calls include requests for information for the package
                            tracking system, change of address, ZIP Codes, rates,
                            stamps by phone, hours, and locations. At the time of our
                            review, the program office was reassessing both the
                            computer-assisted telephone and the event-based surveys,
                            and was preparing a new contract proposal for customer
                            satisfaction surveys.

Management                  Telephone surveys were not conducted between
Challenge                   March 27, 1999, and June 18, 1999, because the
                            operational budget for the program was reduced in
                            response to the Postal Service’s “Management Challenge.”
                            In March 1999 the program office submitted justifications for
                            the continuation of current contracts to the Consulting
                            Services Review Committee, but computer-assisted
                            telephone surveys were not funded or performed while
                            approval from the Consulting Services Review Committee
                            was obtained.

                            The “Management Challenge” initiative also slowed the
                            Corporate Call Management Program’s deployment
                            schedule. As a result, the number of centers included in the
                            customer satisfaction surveys changed several times during
                            the fiscal year. Between September 12, 1998, and
                            December 4, 1998, computer-assisted telephone surveys



                                                 4
                                      Restricted Information
Corporate Call Management Program                                               DA-MA-00-001
 – Customer Satisfaction


                            only included calls to the Denver National Service Center.
                            Beginning on December 5, 1998, telephone surveys
                            included calls to the learning centers in Phoenix, Arizona;
                            Tampa, Florida; and the seasonal site in Van Nuys,
                            California. However, the learning centers were scheduled
                            to be closed during the course of our review and the
                            seasonal site at Van Nuys, California, only handled calls
                            concerning ZIP Code information during Christmas and
                            other peak seasons. As a result, we did not include these
                            facilities in our assessment. Call volume from the Kansas
                            City National Service Center was not added to the
                            computer-assisted telephone survey until January 1999.
                            The program’s original implementation plan proposed
                            building the program’s entire infrastructure by the end of
                            FY 1998. Six months after full implementation, all post
                            offices serviced by the Corporate Call Management
                            Program were to have been included in the network.
                            However, the current implementation plans call for full
                            implementation by FY 2003.

                            In addition, a baseline identifying the level of customer
                            satisfaction with information received over the telephone
                            had not been identified prior to establishing the program.
                            The Decision Analysis Report for the deployment of
                            Corporate Call Management Program said there was no
                            baseline measure, which documents customer satisfaction
                            associated with telephone contact with the Postal Service.
                            Customer Satisfaction Measurement, Consumer Affairs
                            conducted some general surveys that included few
                            questions that related to customer satisfaction prior to the
                            Corporate Call Management Program. However, survey
                            questions focused on the customer’s perception of calling
                            the Postal Service at the local level not customer
                            satisfaction with the call centers.

Suggestion                  The manager, Marketing Technology and Channel
                            Management should establish baseline performance metrics
                            for measuring customer satisfaction and use surveys to
                            collect consistent performance data for assessing customer
                            satisfaction.




                                                5
                                     Restricted Information
Corporate Call Management Program                                             DA-MA-00-001
 – Customer Satisfaction




Management’s                Management agreed with the suggestion and stated that a
Comments                    one-year baseline was established for the Event Based
                            Survey during the audit. However, management pointed out
                            that the Office of Inspector General had not recognized that
                            a one-year baseline was established for the Event Based
                            Survey during the course of the audit. In addition,
                            management stated that the one-year baseline for a
                            computer assisted telephone survey will be established in a
                            few months (July 2000).

Evaluation of               Management’s actions taken and planned are responsive to
Management’s                our suggestion.
Comments

                            We appreciate the cooperation and courtesies provided by
                            your staff during the review. If you have any questions,
                            please contact Tracy A. LaPoint, director, Developmental, or
                            me at (703) 248-2300.



                            Robert L. Emmons
                            Acting Assistant Inspector General
                             for Performance

                            cc: Larry Van Ness
                                John R. Gunnels




                                                6
                                     Restricted Information
Corporate Call Management Program                            DA-MA-00-001
 – Customer Satisfaction


                        APPENDIX. MANAGEMENT COMMENTS




                                               7
                                    Restricted Information
Corporate Call Management Program                            DA-MA-00-001
 – Customer Satisfaction




                                               8
                                    Restricted Information
Corporate Call Management Program                            DA-MA-00-001
 – Customer Satisfaction




 Major Contributors to       Tracy A. LaPoint
 This Report                 Larry Chisley
                             Jeffrey Giordano
                             Michael Niedringhaus
                             Marcus Johnson
                             Rhonda Carter




                                               9
                                    Restricted Information
